                     BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                         BUREAU OF CONSUMER FINANCIAL PROTECTION




                                           November 15, 2011

Mr. Chris Willey
Chief Information Officer
Bureau of Consumer Financial Protection
Washington, D.C. 20220

        The Federal Information Security Management Act of 2002 (FISMA) requires federal
agencies, including the Bureau of Consumer Financial Protection (CFPB), to develop, document,
and implement an agency-wide information security program. FISMA also requires each
Inspector General (IG) to conduct an annual independent evaluation of its agency’s information
security program and practices, to include testing controls for a subset of systems. The CFPB is
relying on the information security program and computer systems of the Department of the
Treasury (Treasury). As part of its 2011 FISMA audit, the Treasury Office of Inspector General
(OIG) evaluated the effectiveness of Treasury’s information security programs, including
controls for 15 systems across Treasury bureaus. One of the systems included in the Treasury
OIG’s FISMA review was a general support system that the CFPB is relying on for network
infrastructure and connectivity to support a number of applications. To meet our annual FISMA
reporting responsibilities for the CFPB and avoid duplication of effort, we relied on the FISMA
work performed by the Treasury OIG. Appendix 1 summarizes the results of the Treasury OIG’s
FISMA review, as it pertains to Treasury’s information security program and the general support
system on which the CFPB is relying.

        The Treasury OIG contracted with KPMG LLC, an independent certified public
accounting firm, to perform its 2011 FISMA audit. Overall, KPMG concluded that Treasury’s
information security program and practices for its non-Internal Revenue Service (IRS) bureaus’
unclassified systems were generally consistent with the requirements of FISMA. KPMG noted,
however, that “Treasury’s information security program was not fully effective,” as evidenced by
control weaknesses identified for various Treasury systems. 1 Treasury can improve the
effectiveness of its information security program and controls for the general support system that
CFPB relies on by strengthening risk management, configuration management, and contingency
planning controls.

        As part of an agency’s annual FISMA reporting, the Department of Homeland Security
(DHS) requests that both the Chief Information Officer (CIO) and IG perform an analysis of
certain agency information security program components. 2 For IGs, these components include
risk management, continuous monitoring, security configuration management, security training,
contractor oversight, contingency planning, incident response and reporting, and security capital
        1
          KPMG LLC’s Fiscal Year 2011 FISMA Performance Audit of The Department of the Treasury
(November 2011).
        2
          DHS Federal Information Security Memorandum 11-02, FY 2011 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management (August 24, 2011).
Mr. Chris Willey                             2                             November 15, 2011


planning. Our responses to DHS’s questions in these areas will be transmitted under separate
cover and will reflect KPMG’s findings for Treasury’s information security program and the
general support system CFPB relies on. CFPB officials informed us that, in consultation with
DHS, CFPB, as a recently established federal agency, will start reporting on these components
during the second quarter of fiscal year 2012.

        We provided a draft of this report to the CFPB CIO, and his response is included as
appendix 2. In his response, the CIO stated that the CFPB continues to leverage certain services
provided by Treasury as an interim means to maintain operational efficiencies. The CIO also
noted that a key component of CFPB technology independence is a robust and comprehensive
cybersecurity program. The CFPB’s cybersecurity program is aligned to the risk management
framework developed by the National Institute of Standards and Technology (NIST). As a
newly established agency, the CFPB is working steadily to develop and mature its internal
functions and processes to include the many facets of technology management.

         This report will be added to our publicly available web site and will be summarized in
our next semiannual report to Congress. We appreciate the cooperation we received from the
CFPB and Treasury during our review. We will continue to monitor and report on the CFPB’s
efforts in establishing an information security program as part of our responsibilities under
FISMA. Please contact me at 202-973-5003 if you would like to discuss this report or any
related issues.

                                           Sincerely,




                                     Andrew Patchan Jr.
                    Associate Inspector General for Audits and Attestations

cc:    Catherine West, Chief Operating Officer, CFPB
       Zachary Brown, Acting Chief Information Security Officer, CFPB
       Marla A. Freedman, Assistant Inspector General for Audit, OIG, Treasury
APPENDIXES
                                                                                                APPENDIX 1

This appendix summarizes the results of the Treasury OIG’s FISMA review, as it pertains to
Treasury’s information security program and the general support system on which the CFPB
relies.

BACKGROUND
FISMA provides a framework for ensuring the effectiveness of information security controls
over information resources that support federal operations and assets. 3 FISMA requires federal
agencies, including the CFPB, to develop, document, and implement an agency-wide
information security program. This program is to provide security for the information and
information systems of the agency, including those provided by another agency, contractor, or
other source. FISMA further requires each agency IG to perform an annual independent
evaluation of its agency’s information security program and practices, to include testing controls
for a subset of systems.
The Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank) established the
CFPB as an independent and autonomous entity within the Federal Reserve System. 4 Under
Dodd-Frank, the CFPB is charged with ensuring that markets for consumer financial products
and services are fair, transparent, and competitive. Dodd-Frank assigned the responsibility for
performing certain CFPB functions to the Secretary of the Treasury until a Director for the CFPB
is in place. 5 In addition, Dodd-Frank established our office as the IG for the CFPB.
The CFPB relies on and is leveraging Treasury’s Departmental Offices’ (DO’s) information
security program, policies, procedures, and systems until it matures as an organization and can
perform these functions on its own. DO, while not an operating bureau of Treasury, 6 consists of
offices that are primarily responsible for the formulation of policy and Treasury-wide
management issues, including the provision of information technology and administrative
support to Treasury bureaus. With respect to FISMA, Treasury has established overall
department-wide information security policies, and each Treasury bureau and DO operate and
maintain their own information security program. The CFPB entered into an agreement with DO
for the provision of administrative services, including facilities, computer systems, and
information security.
The Treasury OIG, as part of its responsibilities under FISMA, performs an annual independent
evaluation of Treasury’s information security program and controls for select systems. The
Treasury OIG contracted with KPMG LLP, an independent certified public accounting firm, to
perform its 2011 FISMA evaluation. To perform this evaluation, KPMG evaluated the policies
and procedures established for Treasury’s information security program and those established for
3
  Title III, Pub. L. No. 107-347 (December 17, 2002).
4
  Title X, Pub. L. No. 111-203 (July 21, 2010).
5
  As of the date of this report, a Director for the CFPB has not been confirmed by the Senate.
6
  Treasury consists of the following 12 operating bureaus: Alcohol and Tobacco Tax and Trade; Engraving and
Printing; Public Debt; Community Development Financial Institution Fund; Financial Crimes Enforcement
Network; Financial Management Service; Inspector General; Treasury Inspector General for Tax Administration;
Internal Revenue Service; Office of the Comptroller of the Currency (OCC); Office of Thrift Supervision (OTS);
and U.S. Mint. As a result of Dodd-Frank, the functions of OTS were transferred to the Board of Governors of the
Federal Reserve System, the OCC, and the Federal Deposit Insurance Corporation effective July 21, 2011.


                                                        5
                                                                                    APPENDIX 1

Treasury’s operating bureaus and DO. KPMG also tested controls for select systems across
Treasury’s bureaus and DO, including a DO general support system that the CFPB relies on to
support a number of applications. This general support system provides the CFPB with the
network infrastructure, including routers, firewalls, and other security devices, needed to access
the Internet and connect with various Treasury systems. This system also supports the desktop
and laptop computers that CFPB employees utilize.

OBJECTIVES, SCOPE, AND METHODOLOGY
KPMG reported that its objectives for its 2011 FISMA audit of Treasury were to determine the
effectiveness of Treasury’s information security programs and practices for the period July 1,
2010, to June 30, 2011, for Treasury’s unclassified systems. This included a determination as to
whether non-IRS Treasury bureaus had implemented (1) an information security program,
consisting of policies, procedures, and security controls consistent with the FISMA legislation;
and (2) the security controls catalog contained in NIST Special Publication (SP) 800-53, Rev. 3,
Recommended Security Controls for Federal Information Systems and Organizations. To meet
our FISMA reporting responsibilities for the CFPB and to avoid duplication of effort, we relied
on the work performed by KPMG as part of its 2011 FISMA audit of Treasury. Specifically, we
relied on the work performed by KPMG with respect to its evaluation of DO’s information
security program and controls for a DO general support system that the CFPB utilizes.
KPMG reported that it conducted its FISMA audit of Treasury’s information security program in
accordance with generally accepted government auditing standards (GAGAS). Those standards
require KPMG to plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for the findings and conclusions based on the audit objective. To meet
GAGAS requirements for relying on the work of others, we performed appropriate procedures,
including

       •   Obtaining evidence on the qualifications and independence of KPMG staff
           performing the FISMA audit of Treasury;
       •   Reviewing Treasury OIG’s FISMA audit plan, KPMG’s audit report, and KPMG’s
           workpaper documentation;
       •   Meeting with Treasury OIG officials to gain an understanding of how they perform
           their FISMA oversight of Treasury’s information security program, including
           reviewing the work performed by KPMG; and
       •   Discussing KPMG’s audit approach and results with KPMG staff.

Our audit scope was focused on summarizing the work KPMG performed with respect to its
review of DO’s information security program and controls for the DO general support system
that CFPB utilizes. We also utilized KPMG’s results for their review of DO’s information
security program and controls for the DO system to respond to specific questions that DHS has
requested IGs to address in their 2011 FISMA reporting. We will provide our analysis of DHS’s
specific questions under separate cover. Our scope did not include an evaluation of all the work
KPMG performed as part of its overall FISMA audit of Treasury’s information security program.
We also did not analyze information technology that CPFB is developing beyond what is
provided by Treasury and reviewed by KPMG in 2011.

                                                 6
                                                                                    APPENDIX 1

FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS
Overall, KPMG concluded that Treasury’s information security program and practices for its
non-IRS bureaus’ unclassified systems were generally consistent with the requirements of
FISMA. KPMG also concluded that DO had established and implemented an information
security program, common security policies, and procedures based on NIST and Treasury
guidelines. KPMG noted, however, that Treasury’s, including DO’s, information security
programs “were not fully effective,” as evidenced by control weaknesses identified for various
Treasury systems. With regard to the DO general support system that CFPB relies on, KPMG
reported the following two findings and associated recommendations, in support of its
conclusion that Treasury’s, including DO’s, information security program was not fully
effective.

       •   The system security plan did not include all required security controls as specified in
           NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal Information
           Systems and Organizations, dated August 2009. To address this finding, KPMG
           recommended that DO management instruct the vendor operating the general support
           system to update the system security plan to include NIST SP 800-53, Rev. 3 security
           controls and associated control enhancements.

       •   High risk vulnerabilities identified in a vulnerability scan report for the DO general
           support system were not remediated within 30 days, as required. To address this
           finding, KPMG recommended that DO management direct personnel charged with
           remediating vulnerabilities to track open, unresolved vulnerabilities in system plans
           of actions and milestones when the anticipated remediation will exceed 30 days.

KPMG also identified two additional control deficiencies for the DO general support system on
which CFPB relies. KPMG did not classify these as findings, since DO management had already
identified these weaknesses and had identified corrective actions to address them. These control
deficiencies were (1) the Federal Desktop Core Configuration standard was not implemented for
desktop computers and a waiver was not obtained to implement a different standard; and (2) a
backup process for configuration files residing in firewalls, intrusion prevention systems, routers,
and switches had not been established.




                                                 7
                                           APPENDIX 2

Chief Information Officer’s Comments




                                       9
